                                                                 O FFICE OF A UDIT S ERVICES , R EGION V
                                                                     233 N ORTH M ICHIGAN , S UITE 1360
                                                                                    C HICAGO , IL 60601

April 18, 2012

TO:              Mary Wakefield, PhD, RN
                 Administrator
                 Health Resources and Services Administration

FROM:            /Sheri L. Fulcher/
                 Regional Inspector General for Audit Services

SUBJECT:         Recovery Act Costs Claimed by Aunt Martha’s Youth Service Center, Inc. Were
                 Generally Allowable (A-05-11-00063)


The attached final report provides the results of our review of Recovery Act Costs Claimed by
Aunt Martha’s Youth Service Center, Inc. Were Generally Allowable. This review was requested
by the Health Resources and Services Administration.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. We look forward to receiving your final management decision
within 6 months. Please refer to report number A-05-11-00063 in all correspondence.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION V
                                                                  233 N ORTH M ICHIGAN , S UITE 1360
                                                                                 C HICAGO , IL 60601



April 18, 2012

Report Number: A-05-11-00063

Mr. Raul Garza
Chief Executive Officer
Aunt Martha’s Youth Service Center, Inc.
19990 Governors Highway
Olympia Fields, IL 60461

Dear Mr. Garza:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Recovery Act Costs Claimed by Aunt Martha’s Youth Service
Center, Inc. Were Generally Allowable. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.
Page 2 – Mr. Raul Garza



If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. Please refer to report number A-05-11-00063 in all correspondence.

                                           Sincerely,




                                           /Sheri L. Fulcher/
                                           Regional Inspector General
                                             for Audit Services


Enclosure



Direct Reply to HHS Action Official:

Ms. Sandy Seaton
Team Leader, Compliance Team,
Office of Federal Assistance Management/Division of Financial Integrity
Health Resources and Services Administration
Parklawn Building, Room 13C-24
5600 Fishers Lane
Rockville, Maryland 20857
Department of Health and Human Services
           OFFICE OF 

      INSPECTOR GENERAL 





RECOVERY ACT COSTS CLAIMED 

  BY AUNT MARTHA’S YOUTH

 SERVICE CENTER, INC. WERE 

   GENERALLY ALLOWABLE





                       Daniel R. Levinson

                        Inspector General 


                           April 2012

                         A-05-11-00063 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY 


BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996, P.L. No. 104–299, consolidated the Health
Center Program under Section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program. The Health Center Program provides grants to
nonprofit private or public entities that serve designated medically underserved populations and
areas, as well as vulnerable populations of migrant and seasonal farm workers, the homeless, and
residents of public housing.

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the
significant increase in demand for primary health care services among the Nation’s uninsured
and underserved populations. HRSA made four types of grants available to health centers: new
access points (NAP) grants, grants to meet increased demand for services (IDS), facilities
investment program (FIP) grants, and capital improvement program (CIP) grants. HRSA
provided grants to new and existing health centers; some health centers received more than one
type of grant.

Aunt Martha’s Youth Service Center, Inc.

Aunt Martha’s Youth Service Center, Inc. (the grantee) is a not-for-profit corporation established
in 1972 to provide counseling, training, placement and health services to youth and their families
throughout the State of Illinois. The grantee provides primary health, women’s health, oral
health, behavioral health, care management, housing and shelter, education and life skills, and
other services.

HRSA awarded the grantee three Recovery Act grants totaling $15,205,354, with grant
performance periods starting as early as March 27, 2009 and ending as late as February 29, 2012.
As of December 31, 2010, the grantee claimed $3,370,426 under the grants.

OBJECTIVE

Our objective was to determine whether Recovery Act costs claimed by the grantee were
allowable under the terms of the grants and applicable Federal regulations.




                                                i
SUMMARY OF FINDINGS

The grantee’s claimed costs generally were allowable under the terms of the grants and
applicable Federal regulations. Of the $2,693,191 we reviewed, $2,686,282 was allowable;
however $6,909 was unallowable. Specifically the grantee:

   	 used an incorrect rate to determine fringe benefit costs claimed under the grant resulting
      in unallowable costs claimed of $4,990; and

   	 inadvertently paid an invoice twice resulting in unallowable costs claimed of $1,919.

RECOMMENDATION

We recommend that HRSA require the grantee to refund $6,909 in unallowable costs to the
Federal Government.

GRANTEE COMMENTS

In written comments on our draft report, the grantee concurred with our recommendations.
Grantee’s comments are included in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                               ii
                                                 TABLE OF CONTENTS


                                                                                                                                Page

INTRODUCTION...................................................................................................................1 


          BACKGROUND ..........................................................................................................1         

              The Health Center Program ..............................................................................1 

              American Recovery and Reinvestment Act of 2009.........................................1 

              Aunt Martha’s Youth Service Center, Inc. .......................................................1 

              Federal Requirements for Grantees ..................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2 

               Objective ...........................................................................................................2        

               Scope.................................................................................................................2       

               Methodology .....................................................................................................2            


FINDINGS AND RECOMMENDATION............................................................................3


          FINANCIAL REPORTING .........................................................................................3                 

               Federal Requirements .......................................................................................3             

               Fringe Rate ........................................................................................................3     

               Duplicate Invoice ..............................................................................................4         


          RECOMMENDATION ................................................................................................4               


          GRANTEE COMMENTS ............................................................................................4                 


          HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS..... 4



APPENDIXES

          A: GRANTEE COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                   iii
                                       INTRODUCTION 


BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996, P.L. No. 104–299, consolidated the Health
Center Program under Section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing.

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the
significant increase in demand for primary health care services among the Nation’s uninsured
and underserved populations. HRSA made four types of grants available to health centers: new
access points (NAP) grants, grants to meet increased demand for services (IDS), facilities
investment program (FIP) grants, and capital improvement program (CIP) grants. HRSA
provided grants to new and existing health centers; some health centers received more than one
type of grant.

Aunt Martha’s Youth Service Center, Inc.

Aunt Martha’s Youth Service Center, Inc. (the grantee) is a not-for-profit corporation established
in 1972 to provide counseling, training, placement and health services to youth and their families
throughout the State of Illinois. The grantee provides primary health, women’s health, oral
health, behavioral health, care management, housing and shelter, education and life skills, and
other services.

HRSA awarded the grantee three Recovery Act grants totaling $15,205,354, with grant
performance periods starting as early as March 27, 2009 and ending as late as February 29, 2012.
As of December 31, 2010, the grantee claimed $3,370,426 under the grants.

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS awards to nonprofit organizations, institutions of higher education,



                                                1

hospitals and commercial entities. As a nonprofit organization in receipt of Federal funds, the
grantee must comply with Federal cost principles in 2 CFR pt. 230, Cost Principles for Non-
Profit Organizations (formerly Office of Management and Budget Circular A-122), incorporated
by reference at 45 CFR § 74.27(a). These cost principles require that grant expenditures be
allowable. The HHS awarding agency may include additional requirements that are considered
necessary to attain the award’s objectives.

HRSA incorporates the HHS Grants Policy Statement (Grants Policy) in its Notice of Grant
Awards, which, among other things, identifies allowable and unallowable costs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Recovery Act costs claimed by the grantee were
allowable under the terms of the grants and applicable Federal regulations.

Scope

We performed this limited scope review in response to a request from HRSA. Therefore, we did
not perform an overall assessment of the grantee’s internal control structure. Rather, we
reviewed only the internal controls that pertained directly to our objective. We limited our
review to costs the grantee claimed for the IDS, FIP, and CIP grants during the review period
March 27, 2009, through December 31, 2010. During the review period, the grantee claimed
$721,797 under the IDS grant; $642,382 under the FIP grant; and $2,006,247 under the CIP
grant for a total of $3,370,426. We reviewed $2,693,191 or 80 percent of costs claimed by the
grantee as of December 31, 2010.

We performed our field work at the grantee’s administrative office in Olympia Fields, Illinois in
April 2011.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and other guidance;

       reviewed grant announcements, grant applications, and notices of grant awards;

       reviewed the grantee’s policies and procedures manual;

       interviewed grantee officials;

       reviewed the grantee’s board minutes covering the audit period;




                                                2

      reviewed the grantee’s independent auditor’s reports and management letters for fiscal
       years 2008, 2009, and 2010;

      identified expended funds in the grantee’s accounting records as of December 31, 2010;

      reconciled grant draw downs to grant expenditures;

      reconciled grant expenditures per accounting records to Federal reports;

      compared budgeted and actual expenditures; and

      reviewed selected costs claimed under the grants for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

The grantee’s claimed costs generally were allowable under the terms of the grants and
applicable Federal regulations. Of the $2,693,191 we reviewed, $2,686,282 was allowable;
however $6,909 was unallowable. Specifically the grantee:

   	 used an incorrect rate to determine fringe benefit costs claimed under the grant resulting
      in unallowable costs claimed of $4,990; and

   	 inadvertently paid an invoice twice resulting in unallowable costs claimed of $1,919.

FINANCIAL REPORTING

Federal Requirements

Pursuant to 2 CFR pt. 230, Appendix A, § A. 2, to be allowable under an award, costs must be
reasonable for the performance of the award and be allocable thereto under these principles.
Costs must also be adequately documented.

Fringe Rate

When calculating fringe benefit costs, the grantee did not apply the correct multiplier to its
calculation of major medical and did not account for employee contributions to the vision
insurance calculation. As a result of these computational errors, the grantee charged to the grant
$4,990 of fringe benefit costs that were not reasonable for the performance of the award.
Therefore, these excess fringe benefit costs were unallowable.



                                                3

Duplicate Invoice

The grantee did not pay a particular invoice promptly and subsequently received a second
invoice from the vendor covering the same services. The grantee paid both invoices which
resulted in an unallowable duplicate payment of $1,919.

RECOMMENDATION

We recommend that HRSA require the grantee to refund $6,909 in unallowable costs to the
Federal Government.

GRANTEE COMMENTS

In written comments on our draft report, the grantee concurred with our recommendations.
Grantee’s comments are included in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                              4

APPENDIXES 

                                       APPENDIX A: GRANTEE COMMENTS 



                          February 27, 2012

                          Report Number: A-05-11-00063

                          Ms. Sheri l. Fulcher
                          Regio na
                                nall Inspector General for Audit Services
                          Office of Audit Services, Region V
                          233 North Michiga n Avenue
                          Suite 1360
PRESlDENl                 Chicago,, IL 6060:1
                          Chicago
C. Gary I.Eofan
        I.Eofantl
                tl
                          Dear Ms. Fulcher
                                   Fulcher::
CEO
Raul Garza
                          Wp "nnrprj;;tp thp nnnortlmitv to r:nmmpn
                                                            r:nmmpntt on thp v;;lirlitv of thp    f~rt'   'mrll'hp
                                                                                                          'mrll 'hp   rp~<;on"hlpnp<;,   of th"
OFFICERS                  recommendations in the draft report entitled Recovery Act Costs Claimed by Aunt Martha's Yauth
Deborah Watson
Chairperson
                          Service Center, Inc. Were Generally Allowable (Report Number: A-05-11-00063) .

John Annis                We concur with thE two findings cited in the repor
                                                                       report,
                                                                             t, as well as with the Recommendation put forth by
Immediate
                          the DIG
                              DIG.. Specifically
                                    Specifically::
Past Chairpersor;

Darryl Stroud             •	     We concur with the Finding that an inaccurate rate was used to determine part-time fringe benefit
Vice Chairperson
                                 costs claimed under th e grant, resulting in unallowab!e costs claimed of$4,990. The root cause of
AndrEW Jones                     the inaccurate r ate was the rounding up of the rate to a round number. In order to mitigate the
Treasurer                        recurrence of t hi
                                                 hiss issue in the future, the fiscal department has instituted an additiona
                                                                                                                   additionall level of
                                 review in the fringe bene fit pro
                                                                 process
                                                                    cess..
                                                                    cess
EllEn Kaplan
Secretary
                                 We concur wiwitt h the Finding that we inadvertently paid a duplicated invoice, which resulted in
BOARD OF DlREC
         DlRECTORS
               TORS
Estheros
Esthero se Bachrac
             Bachrachh
                                 unallowab
                                 un allowablle costs claimed ot $1 .919. After becoming aware of th
                                    allowab                                                        the
                                                                                                     e secon d (lavmen1. we contacted
William Fa
         Fallen
             llen                the vendor and received a refu nd of ththe
                                                                          e duplicate pay
                                                                                      paymen
                                                                                          ment.
                                                                                          men t.
Debra Liddell
Pam Tay   lor
     Taylor
William \l\lesende
         \l\lesenderr
                          Ct 	   We concu r with the Recommendat
                                                      Recommendatio   io n that Aunt Martha's refund a total of $6,909 i n unaliowable
Adriean Williams                 costs to the Federal Government. Understanding that the draft report is subject to further reviereview
                                                                                                                                      w
                                 and revision, we will look fo rward to receivi ng a copy of the final report from OIG, and will take the
HONORARY MEMBERS
Charles Childres,
                                 steps necessary to compl
                                                    complyy with all of the final Recommendations at that time.
Peggy Eisenstein
                          Our obligation as an organ
                                                  organii zation to be an effective steward of Government funds is not one which we
Services radiating from
sites in 15 countie
            counties.'
                    s.'
                          take
                          tak e lightly, which is why we appreciate this opportunity to provide a formal respresponse
                                                                                                                 onse to the OIG
Coles County              findings . We are proud of the work we do at Aunt Marth  Martha's,
                                                                                        a's, and are excited about the significant
Cook County               projects we are undertaking with the funding granted to us by th    the
                                                                                                e Federal Government under the
Dougias
Dougia s County
                          American Recovery and Reinves        tment Act.
                                                     Reinvestment
fdgarCoun\V
Effingham Coun
          County
               ty
Grundy County             If you need any furt her clarifica
                                                    clarification
                                                             tion in rega r ds to this lette
                                                                                       letterr or the steps we'v e taken to addres
                                                                                                                            addresss the DIG
Iroq uois Count~
 roquois  Count~11
                          Findings,, please do no
                          Findings             nott hesitate to cal l me
                                                                      me,, or contact Chris Nordloh, ChiefFin ancial OffOffii cer
                                                                                                                              cer,, at (708)
Kane County
Kankakee County
                          747-7100
                          747-71  00 or through email at CNordloh@auntmarthas
                                                            CNordloh@auntmarthas..org.
Marion County
Pulaski County
Stark County
Vermilion Coun
          County
               ty
Wabas~,, County
Wabas~
Will County

                          Chief Exewtiv€ Officer
                          Aunt Martha's Youth Service Center

                                                                     Administrative Office
                                                                   19990 Governors Highway
                                                                    Olympia Fields
                                                                            Fields,, IL 60461
                                                                       ( 708) 747-7100
                                                                     www.a
                                                                     www  .auntmar
                                                                          .a untmartthas.org
                                                                             untmar
                                                                                                                                        Page 1 of2


APPENDIX B: HEALTH RESOURCES AND SERVICES ADM
                                          ADMIN
                                             INISTRA
                                             IN ISTRATION
                                                ISTRA TION
                       COMMENTS


                                                                                   HE~r:dth        ,-",'''',Jf:
                                                                                                   ,-", '''',Jf: (-''. e;I\C:   Ser\/ ic c~:
                                                                                   /j,(j (1~ ;'r: ~~:
                                                                                                  ~~:tt rc:~ k',
                                                                                                             k',""




        :             Insspe
                      In  pecto
                             ctorr G enera
                             cto     enerall

     FROM
     FRO M:           Admiinistrator
                      Adm

     SUBJE
     SUB JECT:
         JE CT:             Drafll Report: "Recovery A(;1 Co s ts C laimed by Aunt Martha's YOllt
                      OIG Draf                                                                  YOllth
                                                                                                     h
                            TO
                      Servi
                      Ser vi ce Cen
                                Centter
                                     er,, In e_ Were Generall
                                          Ine_       Generallyy A llo
                                                                  lloww able" (A-05- j 1-0(063)

     Attach
     Attac  h ed is the Healt
                        Healthh Resources and Services Adminis
                                                         Administr    ation's (HRSA) r esponse to
                                                                   tration's
                                                                   tr
     the OIG's dran report , "Re    covery Act Costs Claim
                                "Recovery              Claimeded by Aunt Mart
                                                                           Marth,l's
                                                                                h,l's Youth Serv
                                                                                            Service
                                                                                                 ice
     Center,, Inc. Were Clollorall
     Center                         y A iIowab
                          Clollorally   iIowablle" (A- 05-11 -00063). If you have any questions
                                                   (A-05-11                              questions,,
     pleass e contac1 Sandy Seaton in HRSA'5 Office of Federal Assistance Managem
     plea                                                                          Managemeent
     at (3 01) 443-2432.




     ,A.tt3chnien
        tt3chnientt
                                                                                                 Page 2 of2




  Health Resources and Serv kcss Administration' ~ Comments on the OIC Draft R e.port -­
                       Servkc
                            kc
    "Rewvery Act Costs Claimed by Aunt Mar   Martha
                                                 tha's
                                                 tha 's Youth Service Center, Jnc. \\len:
                                                                                   \\len:..
                        Gener
                        Ge  nerally
                            ner ally All
                                     Allowa
                                         owable"
                                         owa ble" (A-05-
                                                  (A-05-11
                                                         11 · (!O0
                                                              (!O063
                                                                   63))
                                                                   63

The Healtb Resources c.nd Sen·ices Administration (JiRSA) appreciates the opportunity to
respond 10 the ab()ve subject report HRSA's response to the Office ofInspeetor Gene
                                                                               Genera
                                                                                    rall (OIG)
                                                                                    ra
draft rec
      recom
          ommendm
          ommendmion
            mendm  ion is as fo]] o\\1
                                  o\\1s:
                                       s:

OIG Recommendation:

''ie recommend th
               that
                  at HRSA requi
                          require
                                re the gr
                                       grantee
                                          antee t o refund S6
                                                           S6,90
                                                              ,9099 in unaUowab1r costs to the
                                                              ,90
Federal Go
        Governme
           vernment.
           vernme nt.

HRSA Response:

BRSA concurs Wilh the 01(1 recommendat ionn and wi]] work witb th
                           recommendatio
                                       io                      thee grantee 10 filcililllie
collecttion oflhe lmallowable costs. 1n addition, HRSA will continue to monitor the grantee's
collec
use of funds and progress on awarded activ
                                       activitie
                                            ities.
                                            itie s.
